STATE OF SOUTH CAROLINA
COUNTY OF RICHLAND

)
)
)

)

50WOR40I05000DI
Al

CIVIL CASE NUMBER
IN THE MAGISTRATE’S COURT

)
)
)

COMPLAINT& MOTION
FOR RESTRAINING ORDER

Richard. E. Boggs
7001 St Andrews Rd„ #124
Columbia. S.C. 29212
PLAINTIFF

•=

£§

fj

VO

•T1

>

rr-

vs.

_
CO

Peter Rae
10715 David Taylor Dr., Suite 200
Charlotte, N.C. 28262
DEFENDANT

1 5
SS#
DOB
31?
DL#
STATE £
RACE W
SEX
M
PHONE 17041 506-3523

1. The Harassment or Stalking occurred in RICHLAND COUNTY, SC.
2. Plaintiff alleges that the following conduct occurred by the defendant on the times,
dates and places listed and such conduct falls within the definition of:
0 HARASSMENT (Sec. 16-3-1700 (A)), or □ STALKING (Sec. 16-3-1700(8) or (C)).

3. On_Aug. 17_, 2018 at 12: 15 o’clock PM at
29063

504 Gleneaele Cir.. Irmo. S.C.

(location) which is in RICHLAND COUNTY, South Carolina, the

conduct complained of occurred when the defendant:
Rae claims to be a “Special Agent” for the IRS Criminal Investigation Div. but has
provided no official credentials/ID despite numerous requests by the Plaintiff. Rae and
co-worker Pamela Prado did, without prior notice or permission, make two appearances
at the Plaintiff’s family’s residence for no legitimate purpose other than to harass,
intimidate, and cause mental or emotional distress. Both Rae and Prado did unlawfully
surveil the Plaintiff’s family’s residence from a block away for approximately 45 mins 1 hour between the two visits.

4. On Jan. 17,2019 at__:___o’clock__M at_________ _____________________
(location) which is in RICHLAND COUNTY, South Carolina, the conduct
complained of occurred when the defendant:
Rae did make two separate phones calls to Plaintiff’s spouses’ personal mobile phone
and her employers private business phone for no legitimate purpose other than to
harass, intimidate, and cause mental or emotional distress. On her business phone, Rae

left a voicemail message staling he was an “IRS Special Agent” and . .wanted to talk
to her about HER taxes...” even though she is not the target ofRae’s unlawful criminal
inquiry. Apparently, the Plaintiff' is the target of some undisclosed investigation.

MOTION
5. Plaintiff requests: (Check one Or more)
[3That the defendant be temporarily enjoined from abusing, threatening to abuse or
molesting the plaintiff or members of the plaintiff’s family.
^That the defendant be temporarily enjoined from entering or attempting to enter the
plaintiff’s place of residence, employment, education or other location
(3That the defendant be temporarily enjoined from communicating or attempting to
communicate with the plaintiff in a way that would violate Article 17, Chapter 3,
Title 16 of the 1976 South Carolina Code of Laws, as amended.
Signature of Plaintiff or Pers6ffFiling on Behalf
Of Plaintiff

SWORN TO AND SUBSCRIBED
BEFORE ME THIS DAY:

gx*. | sge/T

Turn

rAND COUNTY

NOTICE TO DEFENDANT: YOU HAVE THE RIGHT TO EMPLOY COUNSEL
TO REPRESENT YOU.
PROOF OF SERVICE
Personally appeared before me____ . .
_____________ .■ • , who being duly sworn, says that he
served the within Complaint & Motion for Restraining Order-/-Summons / Rule to Show Cause (circle all
which apply) on the within named defendant personally by leaving with_____
• . ■
a
copy of die same at
in said County and State on the
___ day of____20___, and that deponent is not a party to this proceeding.

DEPUTY/CONSTABLE

A2

STATE OF SOUTH CAROLINA

2019OR4010500001
CIVIL CASE NUMBER

COUNTY OF RICHLAND
IN THE MAGISTRATE’S COURT
SUMMONS
(RESTRAINING ORDER)
(Harassment and Stalking)

. Richard E Boggs
7001 St Andrews Rd# 124
Columbia, SC 29212
PLAINTIFF(S)
VS.
Peter Rae
10715 David Taylor Dr Suite 200
Charlotte. NC 28262
DEFENDANTS)
TO: Peter Rae :

The above named Plaintiff having filed a Petition for Restraining Order, copy attached:
YOU ARE HEREBY SUMMONED TO APPEAR before the:
[CenwuTourtMMT_ ^

Uauu|uecker?Bpulwffd fc
[Coiumbia*SGjrf
on [arc]
be granted.

at

4

le Restraining Order prayed for by the Petitioner should not

IF YOU FAIL TO APPEAR, the relief prayed for by the Plaintiff may be granted.
NOTICE: THE NON-PREVAILING PARTY IN THIS ACTION IS ASSESSED A FILING FEE OF
FIFTY-FIVE DOLLARS ($55.00). THE COURT MAY HOLD A PERSON IN CONTEMPT OF
COURT FOR FAILURE TO PAY THIS FILING FEE. §16-03-1750(D).
January 24, 2019

(MAGISTRATE)

MV30
SCCA/750 (Amended 05/08)

A3

STATE OF SOUTH CAROLINA

20190R401050000I
CIVIL CASE NUMBER

COUNTY OF RICHLAND
IN THE MAGISTRATE’S COURT
SUMMONS
(RESTRAINING ORDER)
(Harassment and Stalking)

Richard E Boggs
7001 St Andrews Rd # 124
Columbia, SC 29212
PLAINTIFF(S)
VS.
Peter Rae
10715 David Taylor Dr Suite 200
Charlotte, NC 28262
DEFENDANT(S)
TO: Richard Boggs :

The above named Plaintiff having filed a Petition for Restraining Order, copy attached:
YOU ARE HEREBY SUMMONED TO APPEAR before the:
Central Court
2500 Decker Boulevard
Columbia, SC
onj
be granted.

to show cause why the Restraining Order prayed for by the Petitioner should not

IF YOU FAIL TO APPEAR, the relief prayed for by the Plaintiff may be granted.
NOTICE: THE NON-PREVAILING PARTY IN THIS ACTION IS ASSESSED A FILING FEE OF
FIFTY-FIVE DOLLARS ($55.00). THE COURT MAY HOLD A PERSON IN CONTEMPT OF
COURT FOR FAILURE TO PAY THIS FILING FEE. §16-03-i750(D).
January 24,2019
(MAGISTRATE)

MV30
SCCA/7S0 (Amended 05/08)

A4

State of North Carolina
Mecklenburg County

A5

Civil/Domestic Violence Papers Return: Cover Letter

v\3pU<\

Date:

The enclosed civil/domestic violence paper(s) are being returned for the reason(s) listed
below:
_______ —— ---- ——
—----There is no charge for DV orders that are to be rendered for service.

)

____ Not sufficient copies for service to be processed!
____ Defendant’s address is not Mecklenburg County.
Address provided is not complete.
Unable to determine enclosed documents.
Received paperwork after the scheduled court date.
Other:

Please make the necessary corrections and return ATTN: Domestic Violence Unit to the
address listed below. For any additional information, please call Rebekah at (980) 314-5908
Thank you,

MCSO Domestic Violence Unit

700 East Fourth Street Charlotte, NC 28202 Phone: 704-336-2543 Fax: 704-432-3763
http://www.inecksheriff.com

•.r •

North Carolina
Mecklenburg County

A6

MECKLENBURG COUNTY SHERIFF’S OFFICE
DOMESTIC VIOLENCE ENFORCEMENT TEAM
DEFENDANT/ PLAINTIFF SHEET
Dale received:

Defendant:
^.1/Wv.».A.

Plaintiff:

Court Date:__:

3\\jAQ

Observations of Defendant / Plaintiff during Service of Order
Spontaneous Utterances

Check all that Apply: Defendant Plaintiff
Cooperative Uncooperative Argumentative
Indifferent
Intoxicated
Excited
Profane
Carefree
Confused
Insulting
Combative
Crying
Other

DATE TIME D/S

h ifnj

I lt-S 1/^

C-dtr) CeiY

rff~

Id’fl.i

M-

7^

Z

MIN

ATTEMPTS INFORMATION
Spoke with Plaintiff/Copies Made

s-sf-

h/C;
ft

f.ftV

ru

30

P&yd—^ r

u, rhk.xx
C/|C/}

r/o./'if

orvc/

/|-|I

700 East Fourth Street Charlotte, NC 28202 Phone: 704-336-2543 Fax: 704-432-3763
htto 7/www.mecksheriff.com
MCSO Executive Staff Approved Rev. 3/13/14

A(t

State of North Carolina/Meckienburg County
OUT OF STATE AFFIDAVIT OF SERVICE

A7

Deputy Sheriff of Mecklenburg county, so being duly sworn, deposes and says that in the Countyrf
Mecklenburg, State of North Carolina, serving the defendant by the laws governing service of Civil
Process within the State of North Carolina, he/she delivered to the within named Defendant/ Respondent
at the following fme(s) and placefs) to wit
Received Date/Time:
j
<31 n
Defendant/ Respondent:
Division:

Case Number:

3.6 /S

Ha iA.Cridrt/t I

(If Applicable)

Typefs) of Process:
(Check Al) That Apply)

Summons □ Complaint □ Us Pendens □ Nobce □ Child Support □ A&P

□ Other:

1/ 3

On:

at:

am

(Date

^

(Time)

0

Individual Service: The Defendant/Respondent listed above was served personally at

MO/f
J ab^Te!**”
the
date andDcv.
time listed

hr. ,^,L 2d(T________________ t
(Location, Address) .

□

Substitute Service: Service was completed by leaving a true copy of the process listed above
with

at
(Name, Relationship)

on the date and time listed above.
LD

(Location)

(Address)

Corporate, LJ-C, Partnership, Association or Government Service: By leaving a true copy
of the process listed above with_____________________
(Name, Tide)

at.
on the date and time listed above.
□

of the said entity
(Location, Address)

Non-Service: Service of the process listed above was not completed at
(Location)

_on the Defendant/Respondent listed above for

(Address)
the following reason:_______
the date and h'me listed above.
Garry L. McFadden,
Sheriff Mecklenburg County IMC

By:

Sworn to and subscribed before me.
This

.on

Q. ,T)urc~Y V.^n
Deputy Sheriff
Mecklenburg County Sheriff’s Office

iIvtLt //3/7T
Date/Time

day of, .\t\ i-A

0 .Noj^Q \a . \ nJrV-i
Notary Public
My commission expires:

ilPt \t

700 East Fourth Street

disrlotte, NC 28202 Phone: 704-336-2543 Fax: 704-432-3763
http://www.mecksheriff.com
UCSO £:«:v&ve S»ff ArooveC Rt* 7 12 1-

3:19-cv-00551-MGL

Date Filed 11/19/19

Entry Number 20

Page 1 of 10

A8

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF SOUTH CAROLINA
Richard E. Boggs,
Plaintiff,
vs.
Peter Rae,
Defendant.

)
)
)
)
)
)
)
)
)
)

C/A No. 3:19-551-MGL-SVH

REPORT AND
RECOMMENDATION

Richard E. Boggs (“Plaintiff’), proceeding pro se, initiated this action by
filing complaint and motion for restraining order against Peter Rae (“Rae”),
an Internal Revenue Service (“IRS”) special agent, seeking the court to enjoin
Rae from contacting Plaintiff and his family.
This matter is before the court on motion filed by the United States of
America (“USA”) seeking to substitute the USA for Rae as defendant and
seeking dismissal of Plaintiffs complaint for lack of subject-matter
jurisdiction. [ECF No. ll]. Plaintiff filed an opposition to the USA’s motion.
[ECF No. 14].1 The motion is ripe for disposition.

1 Plaintiff also submitted two sets of “supporting documentation,” totaling
over 450 pages, consisting primarily of complaints, letters, and
documentation Plaintiff submitted to various governmental entities
concerning his ongoing dispute with the IRS [ECF No. 10, ECF No. 19], all of
which the undersigned has disregarded as non-standard items not permitted
to be filed or otherwise responsive to the issues raised in the pending motion
to dismiss.

3:19-cv-00551-MGL

Date Filed 11/19/19

Entry Number 20

Page 2 of 10

A9

Pursuant to the provisions of 28 U.S.C. § 636(b), and Local Civ. Rule
73.02(B)(2)(e) (D.S.C.), this matter has been referred to the undersigned for
all pretrial proceedings. Because the motion to dismiss is dispositive, this
Report and Recommendation is entered for the district judge’s consideration.
For the reasons that follow, the undersigned recommends the district judge
grant the USA’s motion, substituting the USA as defendant in the present
action and dismissing the case for lack of jurisdiction.
I.

Factual and Procedural Background
As has been previously addressed by the court in Boggs v. United

States, 3:18"CV"3506 (“Boggs V), Plaintiff is subject to an ongoing
investigation, conducted by Rae, of possible offenses committed by Plaintiff in
connection with the administration or enforcement of the internal revenue
laws. [Boggs V, ECF 28-2 Iff 1, 3].2
On January 18, 2019, Plaintiff filed a complaint and motion for
restraining order in the Magistrate’s Court of Richland County, South
Carolina, alleging Rae made contact in person and through phone calls with
Plaintiff, Plaintiffs spouse, or his spouse’s employer on a number of
occasions, “for no legitimate purpose other than to harass, intimidate, and

2 A district court may take judicial notice of materials in the court’s own files
from prior proceedings. See Colonial Penn Ins. Co. v. Coil, 887 F.2d 1236,
1239 (4th Cir. 1989) (noting the most frequent use of judicial notice is in
noticing the content of court records); Fletcher v. Bryan, 175 F.2d 716, 717
(4th Cir, 1949).
2

3:19-cv-00551-MGL

Date Filed 11/19/19

Entry Number 20

Page 3 of 10

A10
cause mental or emotional distress.” [ECF No. l-lf*U 3, 4]. Plaintiff states
Rae held himself out as a special agent of the IRS Criminal Investigation
Division, but provided no official credentials, and unlawfully surveilled
Plaintiffs home. Plaintiff seeks an order enjoining Rae from abusing him or
his family, from entering or attempting to enter Plaintiffs residence or place
of employment, and from communicating \yith Plaintiff and his family in a
way that violates South Carolina law. Id. Tf 5.
On February 22, 2019, the USA removed this action pursuant to 28
U.S.C. § 1442(a).3 In its motion to dismiss filed on March 1, 2019, the USA
argues it should be substituted in this action as a defendant and as the real
party in interest, and the matter should be dismissed as barred by the
doctrine of sovereign immunity as well as the Anti-Injunction Act and the
Declaratory Judgment Act, where, as here, Plaintiff “seeks to enjoin Special
Agent Rae from conducting his lawful duties as a criminal investigator for
the IRS.” [ECF No. 11-1 at 1].

3 This is the sixth case filed by Plaintiff and addressed by this court wherein
Plaintiff challenges the IRS’s efforts to assess and collect taxes from him. See
Boggs v. United States, 3;16-CV-1178 (dismissing action sua sponte for
failure to allege any non-frivolous, cognizable claims), Boggs v. United States,
3:i6-CV-2865 (same), Boggs v. Logic Technology, Inc., 3:i7-CV-2166
(granting USA’s motion to dismiss), Boggs v. United States, 3U8-CV-1915
(same), Boggs U(same).
3

3:19-cv-00551-MGL

Date Filed 11/19/19

Entry Number 20

Page 4 of 10

All

A.

Standard of Review

Dismissal is appropriate under Fed. R. Civ. P. 12(b)(1) where the court
lacks subject-matter jurisdiction. A motion to dismiss under Rule 12(b)(1)
examines whether a complaint fails to state facts upon which jurisdiction can
be founded. It is the plaintiffs burden to prove jurisdiction, and the court is to
“regard the pleadings’ allegations as mere evidence on the issue, and may
consider evidence outside the pleadings without converting the proceeding to
one for summary judgment.” Richmond, Fredericksburg & Potomac R.R. Co.
v. United States, 945 F.2d 765, 768 (4th Cir. 1991) (citing Adams v. Bain, 697
F.2d 1213, 1219 (4th Cir.1982)). The court is “not required to accept as true
the legal conclusions set forth in a plaintiffs complaint.” Edwards v. City of
Goldsboro, 178 F.3d 231, 244 (4th Cir. 1999). Indeed, the presence of a few
conclusory legal terms does not insulate a complaint from dismissal when the
facts alleged in the complaint cannot support the legal conclusion. Young v.
City ofMount Ranier, 238 F.3d 567, 577 (4th Cir. 2001).
Pro se complaints are held to a less stringent standard than those
drafted by attorneys. Gordon v. Leeke, 574 F.2d 1147, 1151 (4th Cir. 1978). A
federal court is charged with liberally construing a complaint filed by a pro se
litigant to allow the development of a potentially meritorious case. Erickson
v. Pardus, 551 U.S. 89, 94 (2007). When a federal court is evaluating a pro se
complaint, the plaintiffs allegations are assumed to be true. Fine v. City of
4

3:19-cv-00551-MGL

Date Filed 11/19/19

Entry Number 20

Page 5 of 10

A12

N.Y., 529 F.2d 70, 74 (2d Cir. 1975). The mandated liberal construction
afforded to pro se pleadings means that if the court can reasonably read the
pleadings to state a valid claim on which the plaintiff could prevail, it should
do so. Nevertheless, the requirement of liberal construction does not mean
that the court can ignore a clear failure in the pleading to allege facts that set
forth a claim currently cognizable in a federal district court. Weller v. Dep’t of
Soc. Servs., 901 F.2d 387, 390-91 (4th Cir. 1990).
B.

Analysis

Plaintiff opposes substitution of the USA as the defendant in this case,
arguing Rae “acted outside any legal authority as a purported ‘law officer of
the US,’” and thus Plaintiffs action against Rae is “as an individual” in that
Rae “willfully, intentionally, and with malice acted outside his official
capacity, authority, and jurisdiction.” [ECF No. 14-1 at 4—5]. However, it is
undisputed all alleged actions taken by Rae were taken in the course of Rae’s
investigation of Plaintiff.
As has been held by multiple courts in this district, plaintiffs claims for
relief “are properly viewed as claims against the United States because the
United States is the proper defendant in actions against IRS employees in
which the taxpayer alleges misconduct by the IRS employees with respect to
taxes.” Riley v. Bartlett, No. 6H4-350-TMC-KFM, 2014 WL 4746289, at *2
(D.S.C. Aug. 13, 2014), report and recommendation adopted, No. CIV.A. 6:145

3:19-cv-00551-MGL

Date Filed 11/19/19

Entry Number 20

Page 6 of 10

A13
350-TMC, 2014 WL 4417708 (D.S.C. Sept. 8, 2014), affd, 615 F. App’x 794
(4th Cir. 2015); Aderinto v. Tax Payer Advocate (IRS), No. C.A. 308-1551JFA-BM, 2008 WL 2077910, at *3 (D.S.C. May 14, 2008) (“Hence, the United
States, not the IRS or individual Internal Revenue Service (IRS) employees,
is the proper defendant in a taxpayer’s action alleging misconduct by the
Internal Revenue Service with respect to taxes.”); see also Johnson v. Barr,
C.A. No. 1-11-cv—104—BO, 2012 WL 7983770, at *1 (E.D.N.C. Oct. 2, 2012)
(“Courts in the Fourth Circuit have recognized that the United States, and
not its individual employees, is the proper party in a suit based on actions
taken by IRS employees in their official capacity.”); Portsmouth Redev. &
Hous. Auth. v. Pierce, 706 F.2d 471, 473 (4th Cir. 1983) (“This is a suit
against a federal official for acts performed within his official capacity, and,
consequently, it amounts to an action against the sovereign.”).
In determining the proper defendant in this suit, it does not matter
that Plaintiff believes the IRS has no legal authority to investigate him and
that Rae has conducted his investigation improperly. Plaintiffs allegations
concern actions taken by Rae only in the course of his work as an IRS agent,
and Plaintiff does not argue otherwise in opposition to the USA’s motion to
dismiss. [ECF No. 1-1, ECF No. 14-1 at 4], Accordingly, the court deems this
case to be against the USA.

6

3:19-cv-00551-MGL

Date Filed 11/19/19

Entry Number 20

Page 8 of 10

A15

issue injunctive relief in suits seeking to restrain the assessment or collection
of taxes.” Judicial Watch v. Rossotti, 317 F.3d 401, 405 (4th Cir. 2003); see
also id. (“it is clear that the Anti—Injunction Act extends beyond the mere
assessment and collection of taxes to embrace other activities, such as an
audit to determine tax liability, that may culminate in the assessment or
collection of taxes”). In Judicial Watch, the Fourth Circuit delineated
“safeguards and remedies” Congress has provided “[w]ith respect to alleged
misconduct by individual IRS employees,” and rejected the argument the
court could issue an injunction, even where plaintiffs in that case
“attribute[ed] a non-tax related purpose to the IRS’s actions.” Id. at 407, 410.
Similarly, the Declaratory Judgment Act authorizes courts to issue
declaratory judgments “ [i] n

case of actual controversy within its

jurisdiction, except with respect to Federal taxes other than actions brought
under section 7428 of the Internal Revenue Code of 1986 . . . .” 28 U.S.C. §
2201(a) (emphasis added). This Act “removes subject matter jurisdiction with
respect to suits to ‘declare the rights and other legal relations of any
interested party’ with respect to federal taxes . . . .” Felkel v. United States,
861 F. Supp. 507, 509 (D.S.C. 1994) (noting the Declaratory Judgment Act
and Anti-Injunction Act, together, “have been held to reflect congressional
intent to require taxpayers to litigate tax controversies either in Tax Court,
see 26 U.S.C. § 6213(a), or to ‘pay first, litigate later’ through a suit for a tax
8

3:19-cv-00551-MGL

Date Filed 11/19/19

Entry Number 20

Page 9 of 10

A16
refund, see 28 U.S.C. § 1346(a)(1); 26 U.S.C. § 7422, whenever disputes arise
regarding the payment of taxes”).
In sum, the court is without subject-matter jurisdiction over Plaintiffs
complaint seeking to enjoin the investigative activities of an IRS agent taken
within the scope of that agent’s employment.
III.

Conclusion and Recommendation
For the foregoing reasons, it is recommended the district judge grant

the USA’s motion to dismiss. [ECF No.ll],
IT IS SO RECOMMENDED.

November 19, 2019
Columbia, South Carolina

Shiva V. Hodges
United States Magistrate Judge

The parties are directed to note the important information in the attached
“Notice of Right to File Objections to Report and Recommendation.”

9

3.19-CV-00551-MGL

Date Filed 11/19/19

Entry Number 20

Page 10 of 10

A17
Notice of Right to File Objections to Report and Recommendation
The parties are advised that they may file specific written objections to
this Report and Recommendation with the District Judge. Objections must
specifically identify the portions of the Report and Recommendation to which
objections are made and the basis for such objections. “[I]n the absence of a
timely filed objection, a district court need not conduct a de novo review, but
instead must ‘only satisfy itself that there is no clear error on the face of the
record in order to accept the recommendation.’” Diamond v. Colonial Life &
Acc. Ins. Co., 416 F.3d 310 (4th Cir. 2005) (quoting Fed. R. Civ. P. 72 advisory
committee’s note).
Specific written objections must be filed within fourteen (14) days of the
date of service of this Report and Recommendation. 28 U.S.C. § 636(b)(1);
Fed. R. Civ. P. 72(b); see Fed. R. Civ. P. 6(a), (d). Filing by mail pursuant to
Federal Rule of Civil Procedure 5 may be accomplished by mailing objections
to:
Robin L. Blume, Clerk
United States District Court
901 Richland Street
Columbia, South Carolina 29201
Failure to timely file specific written objections to this Report and
Recommendation will result in waiver of the right to appeal from a judgment
of the District Court based upon such Recommendation. 28 U.S.C. § 636(b)(1);
Thomas v. Arn, 474 U.S. 140 (1985); Wright v. Collins, 766 F.2d 841 (4th Cir.
1985); United States v. Schronce, 727 F.2d 91 (4th Cir. 1984).

10

3:19-cv-00551-MGL

Date Filed 01/16/20

Entry Number 27

Page 1 of 4

A18

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF SOUTH CAROLINA
COLUMBIA DIVISION
RICHARD E. BOGGS,
Plaintiff,
vs.
PETER RAE,
Defendant.

§
§
§
§
§
§
§
§

Civil Action No. 3:19-00551 -MGL

ORDER ADOPTING THE REPORT AND RECOMMENDATION,
SUBSTITUTING THE UNITED STATES OF AMERICA AS THE DEFENDANT,
AND DISMISSING PLAINTIFF’S COMPLAINT
Plaintiff Richard E. Boggs (Boggs), proceeding pro se, filed this action Seeking an
injunction against Peter Rae (Rae). The matter is before the Court for review of the Report and
Recommendation (Report) of the United States Magistrate ludge suggesting the United States of
America (USA) be substituted as the defendant for Rae and the USA’s motion to dismiss for lack
of subject matter jurisdiction be granted. The Report was made in accordance with 28 U.S.C.
§ 636 and Local Civil Rule 73.02 for the District of South Carolina.
The Magistrate ludge makes only a recommendation to the Court. The recommendation
has no presumptive weight. The responsibility to make a final determination remains with the
Court. Mathews v. Weber, 423 U.S. 261, 270 (1976). The Court is charged with making a de novo
determination of those portions of the Report to which a specific objection is made, and the Court
may accept, reject, or modify, in whole or in part, the recommendation of the Magistrate Judge or
recommit the matter with instructions. 28 U.S.C. § 636(b)(1). The Court need not conduct a de

3:19-cv-00551-MGL

Date Filed 01/16/20

Entry Number 27

Page 2 of 4

A19
novo review, however, “when a party makes general and conclusory objections that do not direct
the court to a specific error in the [Magistrate Judge’s] proposed findings and recommendations.”
Orpiano v. Johnson, 687 F.2d 44,47 (4th Cir. 1982); see Fed. R. Civ. P. 72(b).
The Magistrate Judge filed the Report on November 19, 2019. Boggs filed his Objections
to the Report (Objections) on November 25, 2019. The USA filed its response to the Objections
on December 9, 2019 (Response). The Court has reviewed the objections but holds them to be
without merit. It will therefore enter judgment accordingly.
The majority of Boggs’s objections are restatements of facts alleged, purportedly
supporting his action. Because these do not address the reasoning of the Report, they will be
treated as conclusory objections and, thus, only require review for clear error. Orpiano, 687 F.2d
at 47. The Court finds no error in the Report and therefore will overrule these objections.
Boggs, however, does raise three objections directly applicable to the Magistrate Judge’s
legal reasoning. All three are without merit and will be addressed in turn.
First, Boggs objects to the invocation of the Anti-Injunction Act (ALA), asserting the AIA’s
bar on tax cases is limited to cases involving exactions. This misstates the scope of the AIA tax
exception. The AIA exception “extends beyond the mere assessment and collection of taxes to
embrace other activities, such as an audit to determine tax liability, that may culminate in the
assessment or collection of taxes.” Judicial Watch, Inc. v. Rossotti,2>\l F.3d 401, 405 (4th Cir.
2003). This would include any investigation undertaken by the Internal Revenue Service. Thus,
the AIA specifically disallows the suit Boggs attempts to bring. Accordingly, the Court will
overrule this objection.
Second, Boggs objects to the Report disclaiming the applicability of the Declaratory
Judgment Act (DJA). Boggs provides no legal basis for his objection, merely asserting the DJA

2

3:19-cv-00551-MGL

Date Filed 01/16/20

Entry Number 27

Page 3 of 4

A21
is applicable because “the defendant(s) lacked the authority to do what he / they did.” Objections
at 9. This is merely a conclusory objection and, thus, requires review for only clear error. Orpiano,
687 F.2d at 47. As the Court stated above, it finds no error in the Report and therefore will overrule
this objection.
Finally, Boggs asserts the Report incorrectly asserts sovereign immunity, claiming
immunity was waived by the government in 5 U.S.C. § 702, the Administrative Procedures Act
(APA). The APA, however, “is not a grant ofjurisdiction,” and “merely suggests] that sovereign
immunity will not be a defense in an action in which jurisdiction already exists.” Lonsdale v.
United States, 919 F.2d 1440,1444 (10th Cir. 1990). The APA alone is insufficient to demonstrate
a clear waiver of sovereign immunity applicable to this case. Consequently, the Court will overrule
this objection.
After a thorough review of the Report and the record in this case pursuant to the standard
set forth above, the Court overrules Boggs’s objections, adopts the Report, and incorporates it
herein. Therefore, it is the judgment of the Court the USA is substituted as the defendant for Rae,
the USA’s motion to dismiss is GRANTED, and Boggs’s complaint is DISMISSED WITHOUT
PREJUDICE for lack of subject matter jurisdiction.

IT IS SO ORDERED.
Signed this 16th day of January 2020 in Columbia, South Carolina.
s/ Mary Geiger Lewis
MARY GEIGER LEWIS
UNITED STATES DISTRICT JUDGE

3

3:19-cv-00551-MGL

Date Filed 01/16/20

Entry Number 27

Page 4 of 4

A22
jfc $ $ s)e $

NOTICE OF RIGHT TO APPEAL
The parties are hereby notified of the right to appeal this Order within sixty days from the
date hereof, pursuant to Rules 3 and 4 of the Federal Rules of Appellate Procedure.

4

20-1672 Appeal (3:19-cv-0551)

CERTIFICATE OF SERVICE
Republic/State of South Carolina
Subscribed and Affirmed
County of Lexington

A23

)
)
)

i.rTiVv^s ft U 6tx i£ 'fery th

e undersigned mailer/server, being of sound mind and under no duress,
do hereby certify, attest and affirm that the following facts are true and correct, to wit:
1. That on the 8th day of July 2020 on behalf of Richard E. Boggs, a human being, the undersigned personally
deposited the following documents (listed below) inside the envelope, sealed them and transmitted them via
the carrier indicated in item 2 below, to wit:

Table of Contents
Table of Authorities
20-1672 Appeal Informal Opening Brief; Corp Disclosure

1
2
3

Total of

1
2
10

3 documents with combined total of 13 pages.

2. That I personally mailed said document(s) via:
X

United States Postal Office, by Certified Mail #
Return Receipt Requested

see below

at said City and State, one (1) complete set of ORIGINAI^COPIEDj(circle one) documents, as described in
item 1 above, properly enveloped and addressed to (address
[s) and address(es)):

m mecipiehUsm
1

2
3.

Clerk
U.S. Court of Appeals, Fourth Circuit
1100 East Main St., 5th FI.
Richmond, VA 23219

Certified Mail # 7018 1830 0000 9622 6979

Robert J. Branman
U.S. DOJ Tax Division, Appellate Section
Post Office Box 502
Certified Mail # 7018 1830 0000 9622 6986
Washington, D.C. 20044

That I am at least 18 years of age;

4. That I am not related to Richard E. Boaas by blood, marriage, adoption, or employment, but serve as a
"disinterested third party” (herein “Server”); and further,
5. That I am in no way connected to, or involved in or with, the person and/or matter at issue in this instant
action.
I now affix my sign^Wre to these affirmations.

l

(Signature):__
(Printed name):

■3j|
1

Certificate/Proof/Affidavit ofService

., Mailer/Server

ft Iftoii. /s7£/<L,

Page 1 of2

20-1672 Appeal (3:19-cv-0551)

NOTARY PUBLIC’S JURAT
2
v

A24

i

day of \i ilL\
Subscribed and sworn to (or affirmed) before me on this
______ ,2020, by
Richard E._ Boggs . proved to me on the basis of satisfactory evidenced be tne person(s) who appeared
before me.
WITNESS my hand and official seal.

My Commission Expires Oh: j2

Certificate/Proof/AffMavit ofService

^Cj

Page 2 of 2

NO.

20-1672

In The

United States Court of Appeals
For The Fourth Circuit
Richard E. Boggs Pro Se
Petitioner/Appellant

V.

United States of America, Peter Rae
Respondent/Appellee

ON APPEAL FROM THE UNITED STATES DISTRICT COURT
AT COLUMBIA
FOR THE DISTRICT OF SOUTH CAROLINA

Appellant's Opening Informal Brief

Counsel for

A25

20-1672 informal Opening Brief
A26

Table of Contents
CERTIFICATE OF SERVICE
TABLE OF AUTHORITIES

..a
i

Cases......................................

,1

Statutes...................................

i

Regulations.............................
Internal Revenue Manual (IRM)

ii

STATEMENT OF THE ISSUES

1

ARGUMENT

5

CONCLUSION

7

RELIEF REQUESTED

8

VERIFICATION

9

DISCLOSURE OF CORP. AFF.

10

ii

20-1672 Informal Opening Brief
A27

TABLE OF AUTHORITIES
Cases
Barnhart, Comm'r ofSocial Security v. Sigmon Coal Co., Inc., 534 US 438,450 (2002)

4

Robinson v. Shell Oil Co., 519 US 337, 340 (1997) (citing United States v. Ron Pair Enterprises,
5
Inc., 489 US 235, 240 (1989)))

Statutes
5 USC § 706

4

18 USC §4

8

18 USC §241

.6,7

18 USC §242

7

18 USC §872

7

18 USC § 1341

7

18 USC § 1589(3)

8

18 USC § 1593

8

18 USC § 1962

7

26 USC § 7602

1
1,2, 3,4, 5,6

*26 USC § 7608
*26 USC § 7803(a)(3) [Taxpayer Bill of Rights]

7

28 USC § 1746

9

i

20-1672 Informal Opening Brief
A28

Regulations

3

26 CFR § 1.274-5

Internal Revenue Manual
IRM 5.17.5.13

3

IRM 9.1.2.2(09-06-2013)(l)

1

ii

20-1672 Informal Opening Brief

Boggs v. US/Rae (3:19-cv-0551)

A29
Issue 1: The District Conrt Improperly Removed This Case from State Court and
Improperly Substituted the United States of America (USA't As the Defendant.

Facts in support of Issue 1:
1) The lower court failed to properly consider and interpret 26 USC § 7608 in regard to
IRS agent authority relating to Subtitle A (Income). This fact is undisputed, and the
Plaintiff argues this point repeatedly throughout, despite the magistrate’s statement to
the contrary in her R & R1. This fact is confirmed on pg. 3 of the judge’s Order [EN
27].
a. IRC 7608 could not be clearer and more unambiguous in its language as to
authority of any IRS enforcement officer/agent. Accordingly, it sets the
foundation for authority for other agent actions such as those specified in IRC
§ 7602. The court and the DOJ choosing to ignore IRC § 7608 does not make
it any less relevant.
b. Even the IRS’s own manual2 instructs that IRC § 7608 “provides the initial
authority”, not IRC § 7602 as the DOJ claims.
c. The USDC failed to even mention this controlling statute here, but did muster
a vague, doubtful rendering in 3:18-cv-03506 magistrate’s R&R [EN 36] pg. 7,
footnote 3 by stating:
Petitioner argues throughout his filings that Respondent does not have
jurisdiction to issue summonses. However, 26 U.S.C. § 7608(b)(2)(A)
appears to provide for Rae’s authority to issue the summonses.

1 See EN 20 pg 6.

2 See IRM 9.1.2.2 (09-06-2013)(1)
20-1672 (3:19-cv-0551) Appeal Informal Opening Brief

1

20-1672 Informal Opening Brief

Boggs v. US/Rae (3:19-cv-0551)
A30

Although the magistrate erred in stating “Petitioner argues throughout his filings
that Respondent does not have jurisdiction..since Petitioner only argues lack of
authority - “appears” is insufficient to base a ruling and leaves doubt as to the
court’s reliance to base a decision. This alone is sufficient grounds to reverse the
lower court ruling3.
2) Peter Rae (hereafter “Rae”) declared in his 28 February 2019 sworn declaration [see
3:18-cv-0551 ECF No 28-2] that he is a “duly commissioned Special Agent employed
by the Internal Revenue Service’s Criminal Investigation Division”. “Agents” are
granted enforcement authority from IRC 7608(a) relating to enforcement of Subtitle E
ONLY!
3) The District Court erred in its Notice of Removal [EN 1 ] in referring to Rae as “a sworn
law enforcement officer of the United States of America”. Rae, or ANY IRS “agent”,
is NOT a “law enforcement officer” according to 26 CFR § 1.274-5(k)(6)(ii):
a. Law enforcement officer. The term law enforcement officer means an
individual who is employed on a full-time basis by a governmental unit that is
responsible for the prevention or investigation of crime involving injury
persons or property (including apprehension or detention of persons for such
crimes), who is authorized by law to carry firearms, execute search warrants,
and to make arrests (other than merely a citizen's arrest), and who regularly
carries firearms (except when it is not possible to do so because of
the requirements of undercover work). The term “law enforcement officer”
may include an arson investigator if the investigator otherwise meets
the requirements of this paragraph (k)(6)(ii), but does not include Internal
Revenue Service special aeents.
] A tax must be imposed by clear and unequivocal language. Where the construction of a tax law is doubtful, the doubt
is to be resolved in favor of whom upon which the tax is sought to be laid. (See Spreckles Sugar Refining v. McClain,
192 U.S. 397,416 (1904); Gould v. Gould, 245 U.S. 151,153 (1917); Smietanka v. First Trust & Savings Bank, 257
U.S. 602,606 (1922), Lucas v. Alexander, 279 U.S. 573,577 (1929); Crooks v. Harrelson, 282 U.S. 55 (1930); Burnet
v. Niagra Falls Brewing Co., 282 U.S. 648, 654 (1931); Miller v. Standard Nut Margarine Co., 284 U.S. 498, 508
(1932); Gregory v. Helvering, 293 U.S. 465, 469 (1935); Hassett v. Welch, 303 U.S. 303, 314 (1938); U.S v
Batchelder, 442 U.S. 114,123 (1978)).

20-1672 (3:19-cv-0551) Appeal Informal Opening Brief

2

20-1672 Informal Opening Brief

Boggs v. US/Rae (3:19-cv-0551)

4) Special Agent Rae acted outside the scope of his statutory authority as dictated by
§ 7608 when issuing summons and harassing the Plaintiff and Plaintiff’s spouse
regarding Subtitle A tax. IRM 5.17.5.13 (3) clearly states “Official immunity applies
only when the officer or employee of the Government is acting within the scope of his
or her authority”. IRM 5.17.5.13 (4) goes on to state “Officials and employees of the
United States are liable in their own right, in criminal and civil actions instituted in
federal or state courts, for their actions dome outside of the scope of the duties of their
office or employment. Thereby making the “sovereign immunity” defense moot and
Rae personally liable for his actions. This alone is sufficient grounds for reversal of the
USDC ruling.
Issue 2: The District Court Failed to Provide the Plaintiff Review as Required By 5 USC §
706.
Facts in support of Issue 2:
1) The District Court is compelled by 5 USC § 706 to hold unlawful and set aside agency
action(s) found to be in excess of statutory authority.
2) The District Court, apparently blinded by its biased determination to find in favor of the
government, ignored the foundational statute (26 USC § 7608) which clearly defines the
extend and limitation of authority bestowed upon IRS agents by Congress. Thereby
proceeding as though agent Rae had authority to undertake the actions taken and ignoring
the clear unambiguous language of IRC § 7608 in order to dispose of this case using the
“sovereign immunity” defense which the Appellant has shown to be not applicable in this
case.

20-1672 (3:19-cv-0551) Appeal Informal Opening Brief

3

20-1672 Informal Opening Brief

Boggs v. US/Rae (3:19-cv-0551)

A32
3) The Supreme Court says that a court's duty is to interpret the provisions relied upon.
(See Barnhart, Comm'r of Social Security v. Sigmon Coal Co., Inc., 534 US 438, 450
(2002) ("As in all statutory construction cases, we begin with the language of the statute.
The first step "is to determine whether the language at issue has a plain and unambiguous
meaning with regard to the particular dispute in the case." Robinson v. Shell Oil Co., 519
US 337, 340 (1997) (citing United States v. Ron Pair Enterprises, Inc., 489 US 235, 240
(1989)). The inquiry ceases "if the statutory language is unambiguous and 'the statutory
scheme is coherent and consistent.'" 519 US, at 340.")).
4) Congress clearly makes the obvious distinction regarding authority and enforcement of
Subtitle E (Alcohol, Tobacco, and Firearms) and “other than Subtitle E” in IRC 7608. If
Congress had intended to extend enforcement authority to “any investigator, agent, or other
internal revenue officer by whatever term designated” regarding Subtitle A as it did to
Subtitle E it would have done so.
Argument:
The Appellant is entitled to arrange his affairs in such a lawful way as to minimize
the amount of any “tax” owed, if any. The Appellant has done that based on a good faith
understanding of the law and the application of the subject provisions referenced herein.
The Appellant’s understanding and interpretation of the laws relied upon has yet to be
rebutted by the Appellee(s), therefore is undisputed.
Section 18 USC § 241 makes it a crime for “Two or more persons (to) conspire to
injure, oppress, threaten, or intimidate, any citizen in the free exercise or enjoyment of any
right or privilege secured to him by the Constitution or laws of the United States.” Under
the “laws of the United States,” Rae, and the other special agent(s) who participated in any

20-1672 (3:19-cv-0551) Appeal Informal Opening Brief

4

20-1672 Informal Opening Brief

Boggs v. US/Rae (3:19-cv-0551)

A33
way in the unauthorized, unlawful actions against the Appellant and his spouse were clearly
barred by the provisions of Section 7608 from doing so.
Therefore, if this Court, in conjunction with die U.S. attorneys defending this action
on behalf of the Appellee(s), were to again deny this Appellant the protection afforded him
by section 7608 et al, but were instead to “injure44 and “oppress” him further by not granting
him the relief requested and as mandated by this statute, then this Court, together with said
U.S attorneys, would be collectively in clear violation of the provisions of 18 USC § 241.
The Appellee(s) willfully and intentionally failed to hew to the law, their own
internal guidelines, and the recognized standards of legal construction in order to misuse
the scope of their authority causing the Appellant much financial, emotional, and
professional hardship for simply having an understanding of the law and applying that
understanding to his affairs.
The Appellee(s) willfully and intentionally denied the Appellant the Rights
guaranteed under 26 USC § 7803(a)(3) [Taxpayer Bill of Rights]4.
Appellant’s arguments are firmly rooted in the statutory language of the controlling
subject provisions relied upon.
Conclusion:
Therefore, it has to be concluded that the actions by the Appellee(s), U.S.
Attorney’s and the Department of Justice (Tax Division) to subvert the laws, as evidenced
herein, and trample on the rights of the Appellant can only be deemed willful and

4 (A) the right to be informed, (B) the right to quality service, (C) the right to pay no more than the correct amount
of tax, (D) the right to challenge the position of the Internal Revenue Service and be heard, (E) the right to appeal a
decision of the Internal Revenue Service in an independent forum, (F) the right to finality, (G) the right to privacy,
(H) the right to confidentiality, (I) the right to retain representation, and (J) the right to a fair and just tax system.

20-1672 (3:19-cv-0551) Appeal Informal Opening Brief

5

20-1672 Informal Opening Brief

Boggs v. US/Rae (3:19-cv-0551)
A34

intentional. This equates to extortion (18 USC §872), racketeering (18 USC §1962),
conspiracy against rights (18 USC §241), and deprivation of rights under color of law (18
USC §242) committed by all those involved by their actions against this Appellant. And,
since the Appellee(s) used the U.S. Mail services in their unlawful activity, add mail fraud
(18 USC §1341) to their crimes.
Rae committed perjury in his declaration5 by claiming authority for actions he
clearly knew, or should have known, no authority existed. Ignorance of the law is never an
excuse! The actions against this Appellant, his spouse, and employers were in fact intended
to harass, intimidate, and harm - another lie by Rae in his declaration.
The District Court simply choose to look the other way while Rae violated the law
and the rights of the Appellant and his family.
This Appellant will hold steadfast is his conclusion(s) until such time he is provided
lawful evidence to the contrary. This Appellant has made this court aware of said crimes
as required of him by law (18 USC §4).
Relief Requested:
1.

Based on the above, and the facts and evidence in Appellant’s filings contained in the court
record and previously submitted to the IRS, Appellant respectfully requests the following
relief:
a.

Reimbursement of $2,500.00 by Rae personally for:
1. attorney fees paid for legal representation of spouse at sham, unlawful
interrogation.
2. All court costs associated with this action.

3 See 3:18-cv-03506-MGL EN 28-2 “DECLARATION OF SPECIAL AGENT RAE”.
20-1672 (3:19-cv-0551) Appeal Informal Opening Brief

6

20-1672 Informal Opening Brief

b.

Boggs v. US/Rae (3:19-cv-0551)
A35

Find Rae committed peijury in his declaration by claiming authority for actions he
clearly knew, or should have known, no authority existed.

c.

For such other additional relief as this Court may seem just and proper.

20-1672 (3:19-cv-0551) Appeal Informal Opening Brief

7

Boggs v. US/Rae (3:19-cv-0551)

20-1672 Informal Opening Brief

A36
Verification:
I, Richard E. Boggs, do hereby swear under penalties of peijury (28
USC §1746) that the foregoing statements and claims are true and correct to
the best of my knowledge, as I am a first-hand witness thereto.
Executed this

day of
V

=f

2020.

h
Richard E. Boggs, Appellant Pro Se
All Rights Reserved

The above affirmation was subscribed and duly sworn to before me this

O day of H i ll

2020, by Richard E. Boggs.

i. ffi pM

, am a notary under license

i

from the State of South Carolina whose commission expires on
n

l -

ifV7Q

^OHIA y0X

I

an4.be it known by my hand and my seal as follows:

Notary sij lature

seal

\

Presented By:
'

Dated:

1 //tJh

MW

All Rights Reserved

'

Richard E. Boggs, Appellant Pro Se
7001 St. Andrews Rd. #124
Columbia, South Carolina 29212

/

20-1672 (3:19-cv-0551) Appeal Informal Opening Brief

8

A37
UNITED STATES COURT OF APPEALS FOR THE FOURTH CIRCUIT
DISCLOSURE OF CORPORATE AFFILIATIONS AND OTHER INTERESTS
Disclosures must be filed on behalf of all parties to a civil, agency, bankruptcy or mandamus
case, except that a disclosure statement is not required from the United States, from an indigent
party, or from a state or local government in a pro se case. In mandamus cases arising from a
civil or bankruptcy action, all parties to the action in the district court are considered parties to
the mandamus case.
Corporate defendants in a criminal or post-conviction case and corporate amici curiae are
required to file disclosure statements.
If counsel is not a registered ECF filer and does not intend to file documents other than the
required disclosure statement, counsel may file the disclosure statement in paper rather than
electronic form. Counsel has a continuing duty to update this information.
No. 20-1672

Caption: 20-1672 Informal Opening Brief

Pursuant to FRAP 26.1 and Local Rule 26.1,
Richard E. Boggs

(name of party/amicus)

appellant
, makes the following disclosure:
who is
(appellant/appellee/petitioner/respondent/amicus/intervenor)

1.

Is party/amicus a publicly held corporation or other publicly held entity? □ YES ITInQ

2.

□yesJZJno
Does party/amicus have any parent corporations?
If yes, identify all parent corporations, including all generations of parent corporations:

3.

Is 10% or more of the stock of a party/amicus owned by a publicly held corporation or
□yes [3 NO
other publicly held entity?
If yes, identify all such owners:

09/29/2016 SCC

-1-

A38
4.

Is there any other publicly held corporation or other publicly held entity that has a direct
financial interest in the outcome of the litigation (Local Rule 26.1 (a)(2)(B))? I I YES (71 NO
If yes, identify entity and nature of interest:

5.

Is party a trade association? (amici curiae do not complete this question)
CDyES H NO
If yes, identify any publicly held member whose stock or equity value could be affected
substantially by the outcome Of thei proceeding or whose claims the trade association is
pursuing in a representative capacity, or state that there is no such member:

6.

Does this case arise out of a bankruptcy proceeding?
If yes, identify any trustee and the members of any creditors’ committee:

Signature: /(J.

Date:
All Rights Reserved

Counsel for:

□yesHno

8 July, 2020

^

pro se

CERTIFICATE OF SERVICE
** * ★ * *★ * ** * * * * * * * * * * * * * * * *
I certify that on
8 July, 2020
the foregoing document was served on all parties or thencounsel of record through the CM/ECF system if they are registered users or, if they are not, by
serving a true and correct copy at the addresses listed below:
Robert J. Branman
U.S. DOJ Tax Division, Appellate Section
Post Office Box 502
Washington, D.G. 20044
Certified Mail # 7018 1830 0000 9622 6986

8 July, 2020
(date)
• 2-

USCA4 Appeal: 20-1672

Doe: 12

Filed: 11/17/2020

Pg:1of4

A39
UNPUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 20-1672
RICHARD E. BOGGS,
Plaintiff - Appellant,
v.
UNITED STATES OF AMERICA,
Defendant - Appellee,
and
PETER RAE,
Defendant.

Appeal from the United States District Court for the District of South Carolina, at
Columbia. Mary G. Lewis, District Judge. (3:19-cv-00551-MGL)
Submitted: November 6, 2020

Decided: November 17, 2020

Before DIAZ and FLOYD, Circuit Judges, and SHEDD, Senior Circuit Judge.

Affirmed by unpublished per curiam opinion.

Richard E. Boggs, Appellant Pro Se. Robert Joel Branman, Arthur Thomas Catterall, Tax
Division, UNITED STATES DEPARTMENT OF JUSTICE, Washington, D.C., for

USCA4 Appeal: 20-1672

Doc: 12

Filed: 11/17/2020

Pg:2of4

A40

Appellee.

Unpublished opinions are not binding precedent in this circuit.

2

USCA4 Appeal: 20-1672

Doc: 12

Filed: 11/17/2020

Pg:3of4

A41

PER CURIAM:
Richard E. Boggs appeals from the district court’s orders adopting the report and
recommendation of the district court, granting the United States’ motion to dismiss, and
denying Boggs’ motion for reconsideration. The United States has filed a motion for
sanctions for filing a frivolous appeal. Regarding the district court’s grant of the motion
to dismiss and the denial of Boggs’ motion for reconsideration, we have reviewed the
record and find no reversible error. Accordingly, we affirm for the reasons stated by the
district court. Boggs v. United States, No. 3:19-cv-00551-MGL (D.S.C. Jan. 16 & Apr. 24,
2020).

Under Fed. R. App. P. 38, we are authorized to impose sanctions for the filing of a
frivolous appeal. Brock v. Angelone, 105 F.3d 952, 954 (4th Cir. 1997). Our power to
impose sanctions applies equally to pro se litigants. Kyler v. Everson, 442 F.3d 1251,1253
(10th Cir. 2006) (“[P]ro se litigants are subject to the same minimum litigation
requirements that bind all litigants and counsel before all federal courts.”). Sanction
awards for frivolous tax appeals “are to be determined on a case-by-case basis.” Wheeler v.
C.I.R., 528 F.3d 773, 783 (10th Cir. 2008). In addition to providing “an effective sanction
for the bringing of a frivolous appeal,” sanction awards “serve as an effective deterrent to
the bringing of future frivolous appeals, and . . . recompense the government for at least
the direct costs of the appeal.” Id. (quoting Casper v. C.I.R., 805 F.2d 902, 906-07 (10th
Cir. 1986)). When a taxpayer repeatedly engages in frivolous litigation to avoid paying
lawful income taxes, courts have adopted the general practice of awarding a lump-sum
sanction. See Veal-Hill v. C.I.R., 976 F.3d 775 (7th Cir. 2020) (setting presumptive
3

USCA4 Appeal: 20-1672

Doc: 12

Filed: 11/17/2020

Pg:4of4

A42

sanction for frivolous tax appeal at $5,000); Wheeler, 528 F.3d at 784-85 (imposing
lump-sum sanction of $4,000); Gary Boggs v. Commissioner, 569 F.3d 235, 238 (6th Cir.
2009) (granting motion for $8,000 in sanctions against taxpayer); Trowbridge v. C.I.R.,
378 F.3d 432,433 (5th Cir. 2004) (lump sum sanction of $6,000 for frivolous tax appeal).
Here, Boggs’ legal theories have been repeatedly and summarily rejected, and we
find his appeal manifestly frivolous. In its motion, the Government requests a lump sum
award of $8,000. In response, while Boggs asserts that his arguments are not frivolous, he
does not challenge the computation of the lump sum award. In light of Boggs’ repeatedly
frivolous litigation, we grant the United States’ motion for sanctions. However, given that
the litigation below and on appeal was fairly focused and not protracted and that Boggs has
not been previously sanctioned, we impose sanctions in the amount of $5,000. We dispense
with oral argument because the facts and legal contentions are adequately presented in the
materials before this court and argument would not aid the decisional process.
AFFIRMED

4

UOV^MH Mppeai. eL\J- ID / £

L/UU. ID

nifcJU. U I /<£Q/«£U£ I

ry. i ui i

FILED: January 26, 2021
A43
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 20-1672
(3:19-CV-00551 -MGL)

RICHARD E. BOGGS
Plaintiff - Appellant
v.
UNITED STATES OF AMERICA
Defendant - Appellee
and
PETER RAE
Defendant

ORDER
The petition for rehearing en banc was circulated to the full court. No judge
requested a poll under Fed. R. App. P. 35. The court denies the petition for
rehearing en banc.
For the Court
/s/ Patricia S. Connor, Clerk

20-1672 Motion forEn Blanc Rehearing (3:19-cv-0551)
A44

NOTARY PUBLIC'S JURAT
Subscribed and sworn to (or affirmed) before me on this
Richard E. Boggs
before me.

/</

davof 'TXPPmte/

2020, by

. proved to me on the basis of satisfactory evidence to be the person(s) who appeared

WITNESS my hand and official seal.

^ Caroline Gleaton

\/U

SEAL

Notary Public for South Garolir
Commmission Expires: 10/23/7

Notary Public

My Commission Expires On:

Certificate/Proof/Affidavit ofService

Page 2 of2

1

USCA4 Appeal 20-1672
A45

IN THE UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 20-1672
RICHARD E. BOGGS,
Plaintiff-Appellant
v.
UNITED STATES, et aL,
Defendant-Appellee
and
UNITED STATES; PETER RAE, and coworkers, et al. as individuals;
INTERNAL REVENUE SERVICE,
Defendants

ON APPEAL FROM THE JUDGMENT OF THE UNITED STATES
DISTRICT COURT FOR THE DISTRICT OF SOUTH CAROLINA

PETITION FOR EN BLANC REHEARING FOR THE APPELLANT /
COMPLAINT OF CRIME(S) PER 18 USC § 4 AND JUDICIAL
MISCONDUCT

Appellant Petition for En Blanc Rehearing, Complaint of Crime (18 USC § 4) and
Judicial Misconduct

2

USCA4 Appeal 20-1672
A46

INTRODUCTION
This case is not about “frivolous litigation to avoid paying lawful income
taxes” as this court’s ruling would suggest. This case has nothing to do at all with
“taxes” period, but instead the government’s, and this court’s, reckless disregard
for the law and its outlandish lack of consideration for the rights and property of
citizens in which it is charged with protecting. Even more so, this court’s
unwillingness to restrain the government’s unlawful actions as clearly defined by
the clear, unambiguous statutory language of Congress.
It is the Appellant’s judgement that this court has willfully chosen to ignore
materially factual AND legal matters in order to render its decision in support of
the district court’s unconscionable ruling to dismiss this case and find in favor of
the defendant(s). And then impose sanctions against the Appellant for exercising
his right to due process as provided under the Constitution of the United States in
Amendment V.
The record indicates overt prejudicial errors; materially factual and legal
matters overlooked, or ignored; an abuse of discretion; and judicial misconduct by
this court to wit:
A) This court, as well as the lower district court, has repeatedly failed to go on
record to show how IRC §7608 operated in the government’s, and the
Appellant Petition for En Blanc Rehearing, Complaint of Crime (18 USC § 4) and
Judicial Misconduct

3

USCA4 Appeal 20-1672
A47

court’s, determination1 that defendant Special Agent Rae has the requisite
authority to engage in ANY actions not related to IRC Subtitle E?
1) Appellant made mention of IRC § 7608 no less that 12 times in
Opening Brief, 10 times in his Reply Brief. This court again failed to
mention 7608 once. The USDC Magistrate’s R & R in his previous
case (3:16-cv-3506-MGL) made a single cursory mention in footnote
3 - and then would not definitively say that it applied by stating “26
U.S.C. § 7608 (b)(2)(A) appears to provide for Rae’s authority..
“Appears” is not good enough - either § 7608 provides the requisite
authority, or it does not. The district court made no mention of § 7608
in its decision for this case. Even the IRS agrees with the Appellant
that IRC § 7608 provides the requisite “initial authority”2. The court’s
willingness to ignore this material fact is alarming. Appellant is
certain that if his interpretation and conclusion regarding IRC § 7608,
and other subject provisions, were “manifestly frivolous3” and not
100% correct this court would write volumes about those provisions 1 A “determination” must be the result of a consideration of all relevant facts and statutes. See Hughes v. U.S., 953
F.2d 531 (CA9 1992); Portillo v. Comm’r of IRS, 932 F.2d 1128 (CA5 1991); Elise v. Connett, 908 F.2d 521 (CA9
1990); Jensen v. Comm’r of IRS, 835 F.2d 196 (CA9 1987); Scar v. Comm’r of IRS, 814 F.2d 1363 (CA9 1987);
Benzvi v. Comm’r of IRS, 787 F.2d 1541 (CAI1 1986); Maxfield v. US. Postal Service, 752 F.2d 433 (1984);
Weimerskirch v. Comm’r of IRS, 596 F.2d 358,360 (CA9 1979); Carson v. U.S., 560 F.2d 693 (1977); U.S. v. Janis,
428 U.S. 433,442 (1975); Alexander v. “Americans United” Inc., 416 U.S. 752, 758-770 (1973); Pizzarello v. U.S,
408 F.2d 579 (1969); Terminal Wine, I B.T.A. 697, 701-02 (1925); Couzens, 11 B.T.A. 1140, 1159, 1179.
2 See IRM at 9.1.2.2 (09-06-2013) (1)
3 See 20-1672 ruling page 4.

Appellant Petition for En Blanc Rehearing, Complaint of Crime (18 USC § 4) and
Judicial Misconduct

4

USCA4 Appeal 20-1672
A48

or make mention of them at least once. Instead, their silence regarding
these provisions speaks volumes to the correctness of this Appellant’s
conclusions.
2) The DOJ dismissed the statute titled “Authority of internal revenue
enforcement officers” calling the Appellant’s interpretation of the
plain unambiguous language of § 7608 as “erroneous” and
“irrelevant”! Then attempts to merge the authority provided for
Subtitle E enforcement in § 7608 (a) with the lack of authority
provided for “other than Subtitle E” enforcement in § 7608 (b) in
order to support their moronic interpretation. If Congress would not
have intended to limit enforcement authority there would be no need
for § 7608 (a) and (b) because, as the DOJ would have you believe,
“authority” is somehow bestowed magically through other statutes. If
IRC § 7608 is in fact “irrelevant”, then what other statutes are
“irrelevant? How can the provisions of law relied on by the Appellant
be deemed “irrelevant”, while only the referenced provisions put forth
by the defendants) / Appellee(s) are deemed relevant? Since this
court obviously agrees with the DOJ’s assessment of § 7608, which
other laws are considered “irrelevant” by this court? I need to know. I
demand this court go on record with its own interpretation regarding §
Appellant Petition for En Blanc Rehearing, Complaint of Crime (18 USC § 4) and
Judicial Misconduct

USCA4 Appeal 20-1672

5
A49

7608 as required by 5 USC § 706 - a question of law has been
brought before this court and it “shall” decide, not avoid.
3) The DOJ intentionally perverted the clear, unambiguous language of
the § 7608 as written by Congress and intentionally misled the court
by citing reliance upon § 7608 as “erroneous” and “irrelevant” but
goes on in its reply brief to implore of this court to ignore the
constraints put upon the government and public servants by Congress
and the law in order to shield their unlawful actions! This court either
intentionally ignored this material fact or mistakenly overlooked it in
its ruling - and I highly doubt it was a mistake.
4) We could look to the implementing regulations for clarity, but lo and
behold none exist for § 7608(b) as there does for § 7608(a)4. Further
evidence of prejudicial error?

CONCLUSION
Again, this court is reminded of its duty to adjudicate legal disputes between
parties and carry out the administration of justice in accordance with the law - that

4 See 27 CFR §70.33

Appellant Petition for En Blanc Rehearing, Complaint of Crime (18 USC § 4) and
Judicial Misconduct

6

USCA4 Appeal 20-1672

A50

would be ALL of the law, not SOME of the law. In other words, to say what the
law is5 in respect to the issues brought before it.
Once again, this Appellant has brought before the courts a legal dispute
solidly founded on the clear, unambiguous statutory language of the legislature
(Congress). This court, as well as the USDC, have shown their willingness to

ignore laws specifically written to restrain government, protect the Appellant and
his property, and rewrite other laws (ex. IRC 61(a)) in order to allow an
interpretation that is completely repugnant to the statutory language when read as a
whole in order to feed the government’s insatiable appetite for money and power thereby becoming complicit in the defendant’s obvious criminal activity.
Appellant reminds this court that he did not instigate this action but was
forced to litigate here due to the unlawful action of the DOJ and the district court
to remove the Appellant’s original action from its proper filing in state court for
the unlawful, unauthorized actions of Rae and his cohorts against the Appellant
and his family. This court even saw fit to impose enormous sanctions against this
Appellant for being forced to fight to protect his rights, property, and family from
the abusive unauthorized actions of the defendants. This can only be seen as an

s See U.S. v. Lopez, 115 S.Ct. 1624,1633, 514 U.S. 549 (1995), quoting Marbury v. Madison, 1 Cranch. 137,177, 2
L.Ed. 60 (1803) (Marshal, C.J.).

Appellant Petition for En Blanc Rehearing, Complaint of Crime (18 USC § 4) and
Judicial Misconduct

USCA4 Appeal 20-1672

7

A51

overt attempt to suppress the Appellant’s will and financial ability to fight such
unlawful actions in a court of law - should he be able to locate one.
Appellant expects, and demands, this court do its duty and provide its

interpretation of the operation of IRC § 7608, not simply ignore relevant provisions
of law in order to reach a biased judgement in favor of the government — thereby
becoming complicit in the defendant’s criminal activity itself. This court must put
its finger on the law that permits such action(s) on the part of the defendants or
reverse its outlandish decisions and correct the errors of the lower court, as well as
its own errors.
If this court, as well as the lower court, cannot be relied upon to make its
judgements based on the complete language and operation of the law how can it
call itself a “court of law”? How can a “court of law” expect common citizens to
understand and follow the law under such an example ofjudicial bias and willful
misconduct?
I am entitled to know answers to these questions, and it is the duty of the
IRS and the court(s) to provide those answers according to 26 USC § 7803(a)(3)

Appellant Petition for En Blanc Rehearing, Complaint of Crime (18 USC § 4) and
Judicial Misconduct

8

USCA4 Appeal 20-1672
[Taxpayer Bill of Rights]6 and 5 USC § 7067 respectively; not make sweeping,

A52

unsubstantiated rulings that are unfounded on the operation of the law and then
hide those rulings through “unpublished” judgement(s). In fact, I DEMAND
answers! This court failed to cite a single statute in support of its decision other
than it found “no reversible error”. Ignoring governing statutes is not a “reversible
error”? Finding that a law in question “appears” to operate in a particular way as
cited by the USDC Magistrate in her R & R is not a “reversible error”?
This court further erroneously concluded “Boggs’ legal theories have been
repeatedly and summarily rejected...” when the correct statement should be
“Boggs’ legal conclusions have been repeatedly and summarily ignored...”. And
of course, no ruling by this court would be complete without a few unsubstantiated
mentions of “frivolous” thrown in for good measure.

6 (A) the right to be informed, (B) the right to quality service, (C) the right to pay no more than the correct amount
of tax. (D) the right to challenge the position of the Internal Revenue Service and be heard, (E) the right to appeal a
decision of the Internal Revenue Service in an independent forum, (F) the right to finality, (G) the right to privacy,
(H) the right to confidentiality, (1) the right to retain representation, and (J) the right to a fair and just tax system.
7 To the extent necessary to decision and when presented, the reviewing court shall decide all relevant questions of
law, interpret constitutional and statutory provisions, and determine the meaning or applicability of the terms of
an agency action. The reviewing court shall—
1) compel agency action unlawfully withheld or unreasonably delayed; and
2) hold unlawful and set aside agency action, findings, and conclusions found to be—
(A) arbitrary, capricious, an abuse of discretion, or otherwise not in accordance with law;
(B) contrary to constitutional right, power, privilege, or immunity;
(C)in excess of statutory jurisdiction, authority, or limitations, or short of statutory right;
(D) without observance of procedure required by law;
.(E) unsupported by substantial evidence in a case subject to sections 556 and 557 of this title or otherwise
reviewed on the record of an agency hearing provided by statute; or
(F) unwarranted by the facts to the extent that the facts are subject to trial de novo by the reviewing court.
In making the foregoing determinations, the court shall review the whole record or those parts of it cited by a party,
and due account shall be taken of the rule of prejudicial error.

Appellant Petition for En Blanc Rehearing, Complaint of Crime (18 USC § 4) and
Judicial Misconduct

9

USCA4 Appeal 20-1672
This court again failed to cite a single statute in support of its ruling to

A53

uphold the flawed decision of the lower court and thereby joined the USDC in
earning a vote of no confidence. From appearances, this has all the characteristics
of legislating from the bench and willful effort on the part of members of this court
(and the USDC) to conspire with the defendant’s unlawful activities in order to
deprive this Appellant his rights and property under color of law.
This petitioner will not be ignored, bullied, or sanctioned into silence.
The abuses complained of by the Appellant at the hands of the IRS, DOJ, and
members of the Judiciary are criminally systemic, and they completely
reshape the usurped authority of the IRS relating to Subtitle A enforcement PERIOD!
The Appellant does not consent to be subject to in personam jurisdiction of
this, or any federal court, but acknowledges the court’s jurisdiction over the
appellees.

REMEDY SOUGHT
The Appellant neither violated any provision of Fed. Rules of Civ. Proc.
Rule 11(b), nor was granted the proper review of statutory provisions presented as
required of this court under 5 USC § 706. Therefore, the imposition of sanctions in
this case is simply an abuse of authority and discretion by the ruling panel and
Appellant Petition for En Blanc Rehearing, Complaint of Crime (18 USC § 4) and
Judicial Misconduct

10

USCA4 Appeal 20-1672
parties cited below, thereby not warranted nor proper. The Appellant request

A54

imposed sanctions upon him by this court be rescinded.
The Appellant’s claims are warranted by existing law, are fully supported by
the evidence presented, and are completely lacking any reasonable, coherent
rebuttal.
Since this court is so quick to impose sanctions to “recompense the
government for at least the direct costs of the appeal”, and the purpose of sanctions
is to “deter repetition of the conduct or comparable conduct by others similarly
situated” the Appellant seeks an equal amount imposed upon the following
individuals for their reckless abuse of authority, the law, and the rights of the
Appellant. And to recompense the Appellant for the costs of having to repeatedly
fight the same fight over and over due to the courts failure to say what the law is
and resolve the issues presented as required by law and the government’s failure to
abide by the law:
Judges LEWIS, HODGES, DIAZ, FLOYD, & SHEDD; DOJ’s
ZUCKERMAN, CATTERALL, & BRANMAN
If the DOJ wishes to not incur the costs of “frivolous litigation” it should
refrain from instigating such litigation and engaging in the unlawful conduct
complained of.

Appellant Petition for En Blanc Rehearing, Complaint of Crime (18 USC § 4) and
Judicial Misconduct

USCA4 Appeal 20-1672

ll

A55
In the event this court seeks to rule under the jurisdiction of the Uniform
Commercial Code (UCC) relative to 27 CFR § 72.11 definition of “Commercial
crimes”8, Appellant gives Judicial Notice to the fact he has made a timely
reservation of his rights under the Common Law by specifying “All Rights
Reserved” under his signature - which indicates that I have reserved my Common
Law right NOT to be compelled to perform under any contract I did NOT enter
KNOWINGLY, VOLUNTARILY, and INTENTIONALLY. And I do NOT accept
the liability of any compelled benefit, unrevealed contract or commercial
agreement. The government and this court have repeatedly violated my rights
under the UCC, and my recourse is provided for under UCC 1-103.6.
If this court is still unmoved by all presented for its review thus far, then I
again give Judicial Notice to the fact that since the IRS is strictly a debt collection
agency, the Fair Debt Collection Practices Act (15 USC § 1692) governs their
conduct and provides this Appellant protection against the endless unlawful
activities complained of perpetrated upon this Appellant and his family by the
defendants.
This motion for rehearing will also serve as a formal complaint (as required
of this Appellant by 18 USC § 4) of judicial misconduct, and criminal violation of

8 Commercial crimes. Any of the following types of crimes (Federal or State): Offenses
against the revenue laws; ...

Appellant Petition for En Blanc Rehearing, Complaint of Crime (18 USC § 4) and
Judicial Misconduct

12

USCA4 Appeal 20-1672

A56
18 USC §§ 3, 241, 242, 872, 1623, 26 USC § 7214, et al... on the part of members
cited of this court, the USDC, the DOJ, and the IRS.
Remember to whom you serve!
It appears from the appellee’s reply brief, and the court’s apparent
agreement, that more importance is placed on preserving the illicit revenue stream
and the unlawful actions of the defendants than there is upon adherence to the law
and protection of citizen’s rights.

Appellant Petition for En Blanc Rehearing, Complaint of Crime (18 USC § 4) and
Judicial Misconduct

13

USCA4 Appeal 20-1672

A57

VERIFICATION

I, Richard E. Boggs, do hereby swear under penalties of perjury (28 USC
§1746) that the foregoing statements and claims are true and correct to the best of
my knowledge, as I am a first-hand witness thereto.
Executed this 14th day of December 2020.

Richard E. Boggs, Appellant Pro Se
All Rights Reserved

The above affirmation was subscribed and duly sworn to before me this j
day ofT)P C&m
I

2020 by Richard E. Boggs.

Gftrol( rv*L &]lpcck) <r\

, am a notary under license from

the State of South Carolina whose commission expires on
and be it known by7myhand and my seal as follows:
L

Notary signature and seal
Presented By:

©

Carotin* Gteatoir

^ N«f*ry FvKiC ferSOBth Carolina
f
Expires: 10/23/2030

Dated:

14 Dec. 2020

*

All Rights Reserved

*

Richard E. Boggs, Appellant Pro Se
7001 St. Andrews Rd. #124
Columbia, South Carolina 29212

Appellant Petition for En Blanc Rehearing, Complaint of Crime (18 USC § 4) and
Judicial Misconduct

Constitutional Amendment, Statutes, and Regulations involved A58
(PERTINENT TEXT)

The Fourth Amendment of the United States Constitution provides:
The right of the people to be secure in their persons, houses, papers, and
effects, against unreasonable searches and seizures, shall not be
violated, and no Warrants shall issue, but upon probable cause,
supported by Oath or affirmation, and particularly describing the place
to be searched, and the persons or things to be seized.

The Fifth Amendment of the United States Constitution provides:
No person shall be held to answer for a capital, or otherwise infamous
crime, unless on a presentment or indictment of a grand jury, except in
cases arising in the land or naval forces, or in the militia, when in actual
service in time of war or public danger; nor shall any person be subject
for the same offense to be twice put in jeopardy of life or limb; nor shall
be compelled in any criminal case to be a witness against himself, nor
be deprived of life, liberty, or property, without due process of
law; nor shall private property be taken for public use, without just
compensation.
5 U.S.C. § 706 Scope of review provides:
To the extent necessary to decision and when presented, the reviewing
court shall decide all relevant questions of law, interpret constitutional

and statutory provisions, and determine the meaning or applicability o£459
the terms of an agency action. The reviewing court shall—
(1) compel agency action unlawfully withheld or unreasonably delayed;
and
(2) hold unlawful and set aside agency action, findings, and conclusions
found to be—
(A) arbitrary, capricious, an abuse of discretion, or otherwise not
in accordance with law;
(B) contrary to constitutional right, power, privilege, or
immunity;
(C) in excess of statutory jurisdiction, authority, or limitations, or
short of statutory right;
(D) without observance of procedure required by law;
(E) unsupported by substantial evidence in a case subject to
sections 556 and 557 of this title or otherwise reviewed on the
record of an agency hearing provided by statute; or
(F) unwarranted by the facts to the extent that the facts are
subject to trial de novo by the reviewing court.
In making the foregoing determinations, the court shall review
the whole record or those parts of it cited by a party, and due
account shall be taken of the rule of prejudicial error.
(Pub. L. 89-554, Sept. 6, 1966, 80 Stat. 393.)

26 U.S.C. § 7608 Authority of internal revenue enforcement officers
provides:

A60

(a)Enforcement of subtitle E and other laws pertaining to liquor,
tobacco, and firearms Any investigator, agent, or other internal
revenue officer by whatever term designated, whom the Secretary
charges with the duty of enforcing any of the criminal, seizure, or
forfeiture provisions of subtitle E or of any other law of the United States
pertaining to the commodities subject to tax under such subtitle for the
enforcement of which the Secretary is responsible may—
(1) carry firearms;
(2) execute and serve search warrants and arrest warrants, and
serve subpoenas and summonses issued under authority of the
United States;
(3) in respect to the performance of such duty, make arrests
without warrant for any offense against the United States
committed in his presence, or for any felony cognizable under the
laws of the United States if he has reasonable grounds to believe
that the person to be arrested has committed, or is committing,
such felony; and
(4) in respect to the performance of such duty, make seizures of
property subject to forfeiture to the United States.
(b)Enforcement of laws relating to internal revenue other than
subtitle E

(1) Any criminal investigator of the Intelligence Division of theA61
Internal Revenue Service whom the Secretary charges with the
duty of enforcing any of the criminal provisions of the internal
revenue laws, any other criminal provisions of law relating to
internal revenue for the enforcement of which the Secretary is
responsible, or any other law for which the Secretary has
delegated investigatory authority to the Internal Revenue
Service, is, in the performance of his duties, authorized to perform
the functions described in paragraph (2).
(2) The functions authorized under this subsection to be
performed by an officer referred to in paragraph (1) are—
(A) to execute and serve search warrants and arrest
warrants, and serve subpoenas and summonses issued
under authority of the United States;
(B) to make arrests without warrant for any offense
against the United States relating to the internal revenue
laws committed in his presence, or for any felony
cognizable under such laws if he has reasonable grounds to
believe that the person to be arrested has committed or is
committing any such felony; and
(C) to make seizures of property subject to forfeiture under
the internal revenue laws.

26 U.S.C. § 7803 Commissioner of Internal Revenue; other officials

A62

provides:
[Commissioner of Internal Revenue; other officials.]
(3) Execution of duties in accord with taxpayer rights. In discharging his
duties, the Commissioner shall ensure that employees of the Internal
Revenue Service are familiar with and act in accord with taxpayer rights
as afforded by other provisions of this title, including (A) the right to be informed,
(B) the right to quality service,
(C) the right to pay no more than the correct amount of tax,
(D) the right to challenge the position of the Internal Revenue
Service and be heard,
(E) the right to appeal a decision Of the Internal Revenue Service
in an independent forum,
(F) the right to finality,
(G) the right to privacy,
(H) the right to confidentiality,
(I) the right to retain representation, and
(J) the right to a fair and just tax system.
26 C.F.R. § 1.274-5(k)(6)(ii) - Law enforcement officer. The term law
enforcement officer means... but does not include Internal Revenue snecial agents.
27 C.F.R. § 70.33 - Authority of enforcement officers of the Bureau provides:

Appropriate TTB officers may perform the following functions:

A63

(a) Carry firearms;
(b) Execute and serve search warrants and arrest warrants, and serve
subpoenas and summonses issued under authority of the United States:
(c) In respect to the performance of such duty, make arrests without warrant
for any offense against the United States committed in his presence, or for any
felony cognizable under the laws of the United States if he has reasonable
grounds to believe that the person to be arrested has committed, or is
committing, such felony; and...

IRM 5.17.5.13 - Acting Within Scope of Office or Employment: (3) Official
immunity applies only when the officer or employee of the Government is acting
within the scope of his or her authority. (4) Officials and employees of the United
States are liable in their own right, in criminal and civil actions instituted in federal
or state courts, for their actions done outside of the scope of the duties of their office
or employment.
IRM 9.1.2.2(09-06-2013)(l) - General Authority to Enforce Internal Revenue
Laws and Related Statutes provides...

1.

Title 26 United States Code (USC) §7608(b) provides the initial

authority for investigating crimes arising under the Internal Revenue laws.

A64
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF SOUTH CAROLINA
COLUMBIA DIVISION
RICHARD E. BOGGS

)

)
Petitioner,
v.
UNITED STATES OF AMERICA, et al.,
Defendants.

C/A No. 3:18-CV-03506-MGL-SVH

)
)
)
)
)
)
)
)

DECLARATION OF SPECIAL AGENT PETER RAE
I, Peter Rae, declare pursuant to Title 28, United States Code § 1746 as follows:
1.

I am a duly commissioned Special Agent employed by the Internal Revenue

Service’s Criminal Investigation Division. I make this declaration on the basis of my personal
knowledge of the facts described herein.
2.

In my capacity as a Special Agent, I am authorized to issue administrative

summonses for documents and testimony in furtherance of investigations into any offense
connected with the administration or enforcement of the internal revenue laws. 26 U.S.C.
§ 7602(b); 26 C.F.R. § 301.7602-1; Internal Revenue Service Delegation Order No. 4 (as
revised).
3.

I am conducting an investigation of possible offenses by Mr. Boggs connected

with the administration or enforcement of the internal revenue laws.
4.

In furtherance of the above-referenced investigation, and in accordance with 26

U.S.C. § 7602, on December 10,2018,1 issued administrative summonses (Form 2039) to the
following entities at the addresses indicated:
a. Indotronix Int’l Corp.
687 Lee Road, Suite 250

A65 !
i!
!
i

Rochester, NY 14606
b. ATOS IT Solutions
4851 Regent Boulevard
Irving, TX 75063
c. Artech Information Systems
121 West Trade Street, Suite 2190
Charlotte, NC 28202
d. Logic Technology, Inc.
650 Franklin Street, 4lh Floor
Schenectady, NY 12305
e. Swoon Group LLC
300 S Wacker, Suite 300
Chicago, IL 60606
f. Infinite Computer Solutions
15201 Diamondback Drive, Suite 125
Rockville, MD 20850
g. Ring Legal Department, Custodian of Records
subDoenas@ring.com
5.

Each of the summonses identified in paragraph 4 directed a representative of the

entity to whom the summons was addressed to appear at my office in Charlotte, North Carolina
on January 10,2019, and produce records.
6.

On information and belief, Boggs has or had an employment relationship with

each of the entities identified in paragraph 4.a - 4.f.
7.

On information and belief, Ring.com is a company headquartered in Santa

Monica, California that provides video doorbell subscription services.
8.

Attached as Exhibit A to this declaration are true and correct copies of the

summonses identified in paragraph 4.
9.

I followed all administrative steps required by the Internal Revenue Code for

issuance of the summonses.
i

2

A66

10.

At the time the time the summonses were issued, none of the records or

information sought by the summonses were in the IRS’ possession. I have not yet reviewed any
records received in response to the summonses, and those records will remain segregated from
my investigation file pending resolution Of Boggs’s petition to quash.
11.

I did not issue the summonses to harass Boggs or his spouse, nor did I issue the

summonses to harm his reputation.
12.

At the time the summonses were issued, and continuing through today, no Justice

Department referral as defined by 26 U.S.C. § 7602(d)(2) is in effect with respect to Richard
Boggs.
I declare under penalty of peijury that the foregoing is true and correct. Executed on the
day of February, 2019.

Special Agent, Cl
Internal Revenue Service

)
1
!
3

3:18-cv-03506-MGL

Date Filed 07/26/19

Entry Number 36

Page 6 of 10

A67
2.

Quashing Summonses

The court is also without jurisdiction to hear Petitioner’s requests to
quash the summonses because they are directed at parties outside of the
District of South Carolina. The statute provides “The United States District
Court for the district within which the person to be summoned resides or is
found shall have jurisdiction to hear and determine any proceeding brought
under subsection (b)(2). . . .” 26 U.S.C. § 7609(h). Subsection (b)(2) provides
the circumstances for proceedings to quash summonses. Therefore, this court
does not have jurisdiction to quash the summonses.3
3.

Mandamus

“The authority of federal courts to issue extraordinary writs derives
from the ‘all writs statute,’ 28 U.S.C. § 1651.” See Gurley v. Superior Court of
Mecklenburg County, 411 F.2d 586, 587 (4th Cir. 1969). Section 1651
provides, in pertinent part, that federal courts “may issue all writs necessary
or appropriate in aid of their respective jurisdictions and agreeable to the
usages and principles of law.” 28 U.S.C. § 1651(a). Federal district

3 (Petitioner argues throughout Eis~filings tKaf Respohdeht does not have
(jurisdiction to'issue summonses.'.However, 26"UrSrC"§~760~8(b)(2)(A) appears)
(to providiTTdr' Rae’s authority" to issueThe summonses) Regardless, any
challenge to the legitimacy of the summonses should be brought in the
district in which the summonsed party may be found.

'

■

1

A68

CERTIFICATE OF SERVICE
!

Repubjic/State of South Carolina
Subscribed and Affirmed
County of Lexington

)
)
)

i,

: 1. That.on the:

jj||g
1

V- .

; ^Motion to Reconsider (3:19-cv-00551)
:
Total of 1 documents) with combined total of

3

2. That I personally mailed said document(s) Via:
X ^RetSn Rte^t>RSt?l °T?’ ^ Certlfl®d Mai,#

i

'3 • '

pages.

see below

isagagassmmmssrnssr---—
Wecipient(s)Wmrnmm—

2

Civil Process Clerk
United States Attorney’s Office
1441 Main St.; Suite 500
Columbia, SC 29201
:, :
United States District Court
901 Richland St.
Columbia, SC 29201
CA3:19-cv-00551. .

.

-•

—■■ ■ "

Certified Mail # 7017 2680 OOOQ 0741 4674

ri

! '

i
■

Certified Mail # 7017 2680 0000 0741 4667 .

i
■'

1

(

■l

3.

1

}.'•

That I am at least 18 years of age;

4

i . ■

a';op;ior- ”c''aoy',:en'6a' s“'v-*»“

I

!*

5. That I am in no way connected to, or involved in or with, the person and/or matter at issue in this instant
action.

i

f
r*

►.

I now affix my signature to these affirmations.

r

i

•

i, :
i

(Signature): _

'<:■

t

Mailer/Server

(Printed name): _
f :

* ; .
:

l
!■

Certificaie/Proof/Affidavit ofService
' '

;■

K&fe&w.....

Page ! of 2

i

' i

NOTARY PUBLIC’S JURAT
Subscribed and sworn to (or affirmed) before me on this

/?■

day of

2020, by
befo^me^'60^-' Pr°V6d to m6 °n ^ ba*is °f satisfactory evidence to be the person(s) who appeared

WITNESS my hand and official seal.

SEAL
/

My Commission Expires On:

Notary Public

IZ/13 / Z4

/' ->ms£ \

i

l :5

\

Certificate/Proof/Affldavit ofService

—

\

w: =

«?/ j

Page 2 of2

C/A No. 3:19-cv-00551
1
2

A70

Richard E. Boggs
7001 St. Andrews Road #124
Columbia, SC 29212-1137

3
4

5

IN THE DISTRICT COURT OF THE UNITED STATES
FOR THE DISTRICT OF SOUTH CAROLINA
At Columbia

6
7
8

9

Richard Boggs,
Plaintiff, pro se,

10
11
12
13
14

vs.

PETER RAE (as an individual),
INTERNAL REVENUS SERVICE,
UNITED STATES OF AMERICA
Defendants.

) C/A No. 3:19-cv-00551-MGL-SVH
)
)

) PLAINTIFF’S MOTION TO RECONSIDER
)
)
)
)
)

15
16
17
18
19
20

COMES NOW, Richard Boggs (“Plaintiff”), seeking to move this court to reconsider its
judgement against the Plaintiff for the very particular reasons cited below.

21

This court has repeatedly ignored the law and the rights of the Plaintiff in order to render

22

ruling after ruling in favor of the criminal conduct as described having, been committed by the

23

Defendants). Time and time again this Plaintiff has come before this court with statutory

24

arguments and undeniable proof that the conduct of the Defendants) is in violation of the laws
25

26

of the United States and the Constitutionally protected rights of the Plaintiff as required by 18

27

USC §4, yet this court yields to the criminal actions of the defendants time after time. Repeatedly

28

denying the Plaintiff the protections afforded him by law.

Plaintiff’s Motion to Reconsider

Page 1 of3

i

C/A No. 3:19-cv-00551

1
2
3

A71
This court s failure to even mention 26 USC §7608 in its ruling, much less deny the
applicability of, is further evidence the Plaintiff is correct in his analysis and understanding that
this statute proves unequivocally that RAE, and his cohorts, lack ANY authority to investigate

4
5

anything other than Subtitle E issues. When 7608 is allowed to operate, all other allegations by

6

the Plaintiff fall neatly in place and render this court’s objections moot - ALL OF THEM! This

7

court almost brushed up against 7608 during its second objection synopsis but stopped just short

8

of engaging the law by summarily dismissing the lack of authority as a “conclusory objection”.

9

Really! This court MUST literally ignore the law in order to render such disjointed conclusions

10
11

in support of its ruling. At least it can be said that this court is consistent in that regard.

12

In its objection to lack ofjurisdiction based solely on 5 USC 702, the court totally ignores

13

the reference supplied to jurisdiction on pg 2 of Plaintiff’s Opposition (1) Removal... and (2)

14

Motion to Dismiss [ECF No. 14], The Plaintiff provides this court with an abundance of

15

supporting statutory references that support this court’s existing jurisdiction under 28 USC §§

16
17

1331, 1346, 1361 as well as in personam jurisdiction over the defendants). How much more

18

jurisdiction does this court require in order to do its duty? However, RAE, and his cohorts, are

19

the responsible parties here as individuals due to the complete lack of ANY legal authority

20

whatsoever under 26 USC 7608 to cany out the actions perpetrated against the Plaintiff, his

21

family, or his property. Their reliance on IRS policy/procedure and total ignorance/disregard of

22
23
24

the law is no excuse for their unlawful actions. The court’s silence regarding the very statute that
dictates authority of the defendants) speaks volumes!

25

Is this court seriously willing to go so far outside of the law just to continually protect the

26

criminal activities of such lawless individuals as to become complicit in those crimes under 18

27

USC §§ 2 & 3?

28

Plaintiff’s Motion to Reconsider

Page 2 of3

C/A No. 3:19-cv-00551
A72

1

CONCLUSION

2

It is obvious that the law does not matter here. This dishonorable court has repeatedly

3

ignored the law when it works against its agenda and the agenda of the DOJ/IRS to steal,

4
5

suppress, and “reign in” unruly Americans that dare to have their own good-faith understanding

6

of the law and act on that unrebutted understanding — especially when it protects those law-

7

abiding Americans and their property!

8
9

This court shamelessly runs from its duty to justify/restrain the actions taken against the
Plaintiff by making even a mention, much less a consideration, of the provisions relied upon by

10

11

the Plaintiff. Example: 1) How did IRC 83 operate in your conclusion I had gross income in my

12

compensation for services provided and therefore owe any tax - never addressed despite being

13

at the very foundation of every case filed by this Plaintiff in this court. 2) How does IRC 7608,

14

and the lack of 26 CFR implementing regulations, operate to provide authority for Subtitle A

15
16
17
18
19
20

21
22

enforcement by IRS “agents” - completely ignored although it is basis for restraining unlawful
IRS actions.
I urge this court to reverse course with this misguided ruling and restore some semblance
that law, justice, and fairness still operate in its chambers, even if only on the fringes.
Should this dishonorable court once again refuse to reconsider all relative facts and
statutes presented before it will make this case ripe for appeal. This court has proven itself time
and time again to be an obstacle to, rather that arbiter of, the law.

23
24
e•

25
26

Richard E. Boggs

27

Ali Rights Reserved Without Prejudice UCC 1-308
&S.C. Code 36-1-308

28

Plaintiff’s Motion to Reconsider

Page 3 of 3

This is an automatic e-mail message generated by the CM/ECF system. Please DO NOT RESPOND to A 73
this e-mail because the mail box is unattended.
***NOTE TO PUBLIC ACCESS USERS*** Judicial Conference of the United States policy permits
attorneys of record and parties in a case (including pro se litigants) to receive one free electronic copy
of all documents filed electronically, if receipt is required by law or directed by the filer. PACER access
fees apply to all other users. To avoid later charges, download a copy of each document during this
first viewing. However, if the referenced document is a transcript, the free copy and 30 page limit do
not apply.
U.S. District Court
District of South Carolina

Notice of Electronic Filing
The following transaction was entered on 4/24/2020 at 9:21 AM EDT and filed on 4/24/2020
Case Name:
Boggs v. United States of America
Case Number:
3:19-cv-Q0551-MGL
Filer:
WARNING: CASE CLOSED on 01/16/2020
Document Number: 33(No document attached)
Docket Text:

TEXT ORDER: Pending before the Court is Plaintiffs motion for reconsideration
[30]. The Court will construe this as a motion under Federal Rule of Civil
Procedure 59(e). That rule "provides that a court may alter or amend the
judgment if the movant shows either (1) an intervening change in the controlling
law, (2) new evidence that was not available at trial, or (3) that there has been a
Clear error of law or a manifest injustice." Robinson v. Wix Filtration Corp., 599
F.3d 403, 407 (4th Cir. 2010). Such motions "may riot be used to relitigate old
matters, Or to raise arguments or present evidence that could have been raised
prior to the entry of judgment." Pac. Ins. Co. v. Am. Natl Fire ins. Co., 148 F.3d
396, 403 (4th Cir. 1998). Plaintiffs motion is merely a recitation of arguments he
previously raised. These fail to merit reconsideration under Rule 59(e).
Accordingly, Plaintiffs motion is DENIED. IT IS SO ORDERED. Signed by
Honorable Mary Geiger Lewis on 4/24/2020.(cbru,)
3:19-cv-00551-MGL Notice has been electronically mailed to:
John Douglas Barnett doug.barnett@usdoi.gov. CaseView.ECF@usdoi.gov,
Southern.taxcivil@usdoi.gov. fhomas.K.Vanaskie@usdoi.gov. USA-SC-ECF-Docket-J@usdoi.gov.
saundra.woods@usdoi.gov
3:19-cv-00551-MGL Notice will not be electronically mailed to:
Richard E. Boggs
7001 St. Andrews Road
Apt. 124
Columbia, SC 29212-1137

